   November 19, 2003




Logistics

Defense Logistics Agency Cost to
Maintain Inactive National Stock
Number Items
(D-2004-024)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Follow-up and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Follow-up and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DIIP                 Defense Inactive Item Program
DISA                 Defense Information Systems Agency
DLA                  Defense Logistics Agency
DLIS                 Defense Logistics Information Service
DORRA                Defense Logistics Agency Office of Operations Research and
                        Resource Analysis
DRMS                 Defense Reutilization and Marketing Service
DSC                  Defense Logistics Agency Supply Center
DSIO                 Defense Logistics Agency System Integration Office
FLIS                 Federal Logistics Information System
GPRA                 Government Performance and Results Act
IG DoD               Inspector General of the Department of Defense
NSN                  National Stock Number
SAMMS                Standard Automated Materiel Management System
          Office of the Inspector General of the Department of Defense
Report No. D-2004-024                                                November 19, 2003
   (Project No. D2003LD-0011)

                   Defense Logistics Agency Cost to Maintain
                    Inactive National Stock Number Items

                                Executive Summary

Who Should Read This Report and Why? DoD personnel who are involved in
materiel management should read this report. This report addresses the cost incurred by
the Defense Logistics Agency (DLA) to maintain inactive national stock number items in
the DLA supply system.

Background. The Defense Inactive Item Program, established in 1965, provides for the
systematic elimination of inactive national stock number items from the DLA supply
system. A 1999 DLA cost study addressed the cost avoidance associated with
eliminating items from the DLA supply system, but it did not isolate specific costs
associated with maintaining inactive national stock numbers. In FY 2002, DLA
authorized the DLA Office of Operations Research and Resource Analysis (DORRA) to
conduct a study addressing the cost of maintaining inactive national stock numbers. In
July 2002, DORRA published a draft report, “Cost of a DLA Maintained Inactive
National Stock Number,” which concluded that the average annual cost to maintain an
inactive national stock number item in inventory was $1.53 and to maintain an item that
was not stocked in inventory was $0.97. In FY 2001, there were about 4.1 million
national stock number items that were managed by DLA and, as of May 2001, about 1.4
million of those national stock number items were potentially inactive.

Results. The July 2002 DORRA draft cost study did not accurately identify the cost for
maintaining inactive national stock number items in the DLA supply system. For
instance, of $1.9 billion identified in the DLA pricing model, $409.8 million was
inappropriately excluded from consideration in the cost calculation. As a result, the
average annual cost for maintaining an inactive item of $1.53 for a stocked national stock
number item and of $0.97 for a non-stocked national stock number item were understated
and cannot be used as a basis to accurately determine the cost-effectiveness of the
Defense Inactive Item Program or any other DLA or DoD program. Before the 2002
DORRA draft cost study is applied to DLA programs, DLA should reevaluate the costs
that were excluded from the study, as well as the methodology used to compute and
apply those costs. (See the Finding section of the report for the detailed
recommendations.)

Management Comments and Audit Response. DLA generally concurred with the
recommendations but disagreed with our conclusion that all applicable costs were not
included in the 2002 DORRA draft cost study. DLA nonconcurred with the overhead
and other expense costs that we included in the audit report as well as with labor
requirements and computer storage costs. DLA plans to finalize and disseminate the
2002 DORRA draft cost study after reevaluating certain costs identified as issues in the
audit report. We do not agree that the 2002 DORRA draft cost study should be approved
and disseminated for use before all additional costs identified in the audit are included in
the study. Without those additional costs, the 2002 DORRA draft cost study is not a
reasonable estimate of the cost to manage inactive items and should not be used as a basis
for management decisions. We request that the Director, Defense Logistics Agency
provide additional comments by January 20, 2004. See the Finding section of the report
for a discussion of management comments, Appendix C for a discussion of management
comments on the finding, and the Management Comments section of the report for the
complete text of the comments.




                                             ii
Table of Contents

Executive Summary                                                      i

Background                                                            1

Objectives                                                            3

Finding
     Defense Logistics Agency Cost Study                              4

Appendixes
     A.   Scope and Methodology                                       16
     B.   Prior Coverage                                              18
     C.   Summary of DLA Comments on the Finding and Audit Response   19
     D.   Report Distribution                                         23

Management Comments
     Defense Logistics Agency                                         25
Background
    Materiel Management. Defense Logistics Agency (DLA) supply centers
    (DSCs) are assigned the primary responsibility for materiel management for
    national stock number (NSN) items used either by a particular Service or by DoD
    as a whole. Materiel management responsibilities include cataloging, computing
    materiel requirements, directing procurement of materiel, distribution
    management, and directing materiel disposal actions. There were about
    4.1 million NSNs that were managed by DLA and, as of May 2001, about
    1.4 million of those NSNs were potentially inactive.

    DoD Inventory Reduction Plan. The then Assistant Secretary of Defense
    (Production and Logistics) implemented the DoD Inventory Reduction Plan in
    May 1990 to improve the functional policies, processes, and incentives that
    compose inventory management to attain greater material support effectiveness,
    significant budget savings, and major reductions in DoD inventories. Two
    specific objectives of the DoD Inventory Reduction Plan were to reduce
    quantities of materiel stocked and to reduce the number of items in the DoD
    supply system. The Plan instituted a 10-point program to achieve its objectives.
    One point in the 10-point program emphasized item standardization and materiel
    quality by aggressively pursuing elimination of inactive items and focusing on the
    minimization of item duplication. The Defense Inactive Item Program (DIIP) and
    the DLA item reduction program supported DoD Components in achieving the
    objectives of the DoD Inventory Reduction Plan.

            Defense Inactive Item Program. The DIIP was established in 1965 to
    systematically eliminate inactive NSNs from the DoD supply system. DoD
    Manual 4140.32-M, “Defense Inactive Item Program,” August 1992, states that
    items no longer needed to support the mission of registered users in
    DoD organizations, other Federal agencies, or the International Logistics Program
    needlessly consume cataloging and supply system files, machine time, personnel
    resources, and warehouse space with serious effect on the total supply system.
    DoD managers at every level are expected to place serious and continual
    emphasis on the purging of unneeded items from the materiel inventory and
    active catalog files. The manual requires DoD organizations to consider those
    items having no demand for 5 years or more for inclusion in the DIIP.

            Item Reduction Program. The DLA item reduction program provides
    for the elimination of duplicate or similar NSNs from the DoD supply system.
    DoD Manual 4120.24-M, “Defense Standardization Program (DSP),” March 9,
    2000, provides policies and procedures to achieve standardization objectives for
    the item reduction program. All NSNs with the appropriate item standardization
    code may be included in the item reduction program. NSNs are assigned item
    standardization codes that indicate whether items have potential for item
    reduction studies.




                                        1
DLA Guidance. DLA Manual 4140.2, “Supply Operations Manual,”
July 1, 1999, provides policy, uniform guidance, and procedures for DSCs to
systematically review and eliminate inactive NSNs from the DLA supply system.
An item is considered for elimination if the NSN has had no demand for 5 years
and there are no current or future requirements anticipated by any registered user
or the integrated materiel manager of the NSN.

Prior DLA Cost Study. In September 1999, the DLA Office of Operations
Research and Resource Analysis (DORRA) published a study that provided cost
data in support of item reduction studies. The study included cost avoidance data
for eliminating an existing NSN from the DLA supply system. The 1999 DLA
cost study concluded that it cost $400 to maintain an NSN with inventory in the
DLA supply system (stocked NSN) and $200 to maintain an NSN with no
inventory (non-stocked NSN). Table 1 shows the results of the study.

                        Table 1. Cost of Maintaining NSNs

               Category                                                  Cost

   Average annual cost to maintain a stocked NSN                        $ 400
   Average annual cost to maintain a non-stocked NSN                       200
   Average cost to delete a stocked or non-stocked NSN                      57
   Remaining life-cycle cost avoided by eliminating a stocked NSN        1,495
   Remaining life-cycle cost avoided by eliminating a non-stocked NSN      747


The 1999 DLA cost study applied to active and inactive NSNs and did not isolate
specific costs associated with maintaining an inactive item in the DLA supply
system.

Prior Audit Reports. During the last 3 years, the Inspector General of the
Department of Defense (IG DoD) issued a series of reports addressing various
aspects of the DIIP, including the management of inactive NSN items. In
May 2001, the IG DoD issued Report No. D-2001-131, “Items Excluded From the
Defense Logistics Agency Defense Inactive Item Program,” which estimated that
DLA could avoid costs of approximately $61.2 million by deleting inactive NSNs
from its supply files. The $61.2 million was computed using cost data in the
1999 DLA cost study and inactive NSNs identified in Report No. D-2001-131.
Although DLA had initially agreed with the IG DoD application of the 1999 cost
study data in a prior audit report, in August 2001, DLA amended its comments
related to our use of the cost study and stated that the study should not be used as
a basis to determine cost avoidance associated with retaining inactive NSNs.
Consequently, DLA authorized DORRA to conduct a new study addressing the
cost of maintaining inactive NSNs. In July 2002, DORRA published a draft
report, “Cost of a DLA Maintained Inactive National Stock Number,” which
concluded that the average annual cost to maintain an inactive NSN was $1.53 for
a stocked NSN and $0.97 for a non-stocked NSN.




                                        2
Objectives
    Our overall audit objective was to evaluate the cost incurred by DLA to manage
    inactive NSN items. Specifically, the audit determined whether the costs and
    methodology in the July 2002 DORRA draft cost study provided a valid basis to
    compute and report the cost of maintaining inactive NSN items. See Appendix A
    for a discussion of the scope and methodology. See Appendix B for prior
    coverage related to the objectives.




                                      3
           Defense Logistics Agency Cost Study
           The July 2002 DORRA draft cost study did not accurately identify the
           cost for maintaining inactive NSN items in the DLA supply system. The
           cost study was inaccurate because applicable overhead and other expense
           categories were excluded from the study’s calculations; the study
           underestimated item manager functions and costs associated with inactive
           NSNs; the study’s assumptions were not fully supported, verified, or
           validated; and the study’s methodologies were inconsistent with
           commercial and DLA practices. As a result, the average annual cost for
           maintaining an inactive NSN of $1.53 for a stocked NSN and $0.97 for a
           non-stocked NSN cited in the July 2002 DORRA draft cost study were
           understated and cannot be used as a basis to accurately determine the cost-
           effectiveness of the DIIP or any other DLA or DoD program.


The July 2002 DORRA Draft Cost Study
    Study Purpose and Methodology. The July 2002 DORRA draft cost study was
    to determine the annual cost for maintaining an inactive NSN (both stocked and
    non-stocked). The scope of work indicated that the study used FY 2001 data and
    a marginal, or incremental, methodology. Incremental methodology is designed
    to measure the cost of maintaining one more unit, or a relatively small number of
    units, in an existing system. The study further stated that the incremental
    approach is not appropriate for a large number of units, which could cause
    overhead structural changes, such as changes in facility space, computer capacity,
    supervisors, and clerical staff. About 1.4 million NSNs that DLA managed in
    FY 2001 were potentially inactive as of May 2001.

    Maintenance Cost Definitions. The July 2002 draft cost study defined
    operational maintenance costs as those direct, indirect, and overhead costs that are
    incurred by DLA organizational units to maintain existing NSNs in the DLA
    supply system. The study stated that the primary functions involving inactive
    NSNs that incur direct costs are item manager reviews performed at DSCs and
    specific tasks associated with inactive NSNs that are performed at storage depots.
    Direct and indirect costs for the maintenance of inactive NSNs are any NSN labor
    and non-labor costs that vary in direct proportion to the number of NSNs.
    Overhead costs are any constant costs--costs that do not vary in proportion to the
    number of NSNs--such as facility space and computer capacity. NSN
    maintenance costs are determined by dividing the averages of direct, indirect, and
    overhead costs by the number of NSNs processed to yield a per-unit cost. The
    July 2002 draft cost study evaluated three NSN maintenance cost categories:
    annual supply center cost, computer storage cost, and depot storage cost.


Cost Categories
    The July 2002 DORRA draft cost study did not accurately identify the cost for
    maintaining inactive NSN items in the DLA supply system. The cost study was

                                         4
inaccurate because it did not include all applicable overhead and other expense
categories associated with maintaining inactive NSNs. Five overhead and
expense categories, totaling approximately $409.8 million, identified in the DLA
FY 2003 pricing model were inappropriately excluded from consideration in the
computation of the average annual cost for maintaining inactive NSNs.

DLA Pricing Model. Five overhead and other expense categories in the DLA
FY 2003 pricing model used for calculating cost recovery rates were not applied
to inactive NSNs in the July 2002 DORRA draft cost study. Each year DLA
develops a pricing model for computing cost recovery rates that it charges
customers to recoup operating expenses when selling items. The rate is
calculated as a percentage of acquisition cost that is added to the acquisition price
of an NSN item to establish the price of an item paid by a DLA customer. The
pricing model includes DLA overhead costs and other expenses that are allocated
to NSNs in determining the cost recovery rate.

The July 2002 DORRA draft cost study attempted to identify inactive NSNs and
isolate the costs specifically associated with maintaining an inactive NSN.
However, DORRA did not identify an appropriate portion of the overhead and
other expense categories used to develop its cost recovery rate that would be
attributable to inactive NSNs. Although DLA only recoups expenses in the sale
of an item, inactive NSNs also incur expenses allocated to the active NSNs sold.
That is to say, if the inactive NSNs were deleted from the supply system, some
portion of the overhead and other expense categories should also be reduced and
the cost recovery rate charged to customers should likewise be less. DLA did not
consider those costs because it used the incremental methodology in the cost
model. More than 34 percent (1.4 million of 4.1 million) of the NSNs managed
by DLA are potentially inactive; therefore, the incremental approach appears to
be an inappropriate methodology.

The DLA FY 2003 pricing model had a breakout of nine categories of direct,
indirect, and overhead costs, totaling about $1.9 billion, that were allocated to the
DSCs or selected DLA-managed commodities. Of the nine categories,
five overhead and other expense categories were not considered in the
development of the July 2002 DORRA draft cost study. Those categories were
DLA overhead expense, DSC overhead expense, Defense Reutilization and
Marketing Service (DRMS) expense, DLA System Integration Office (DSIO)
expense, and obsolete item expense (replacement costs for disposals equal to
disposed items’ acquisition value). Overhead and other expense categories
should be allocated to all NSNs managed by DLA, whether they are active or
inactive. Table 2 shows the overhead and other expense categories and associated
costs that were not considered in the DORRA draft cost study.




                                      5
              Table 2. DLA FY 2003 Pricing Model Categories
                    Excluded From the Draft Cost Study
                               (in millions)

                            Category                     Cost

                   DLA overhead expense                 $158.5

                   DSC overhead expense                  176.6

                   DRMS expense                           33.4

                   DSIO expense                           11.6

                   Obsolete item expense                  29.7

                    Total                               $409.8

Consistent with the DORRA methodology in identifying costs in other overhead
and expense categories, we calculated only those costs applicable to the DSCs
that manage general and industrial-type items. For example, the DSC overhead
expense of $176.6 million included only the expenses allocated to
DSC Richmond, DSC Columbus, and DSC Philadelphia for managing general
and industrial-type items. Expenses associated with other commodities--
subsistence, medical, clothing--and energy-related costs were excluded.

NSN Maintenance Cost Categories. The analysis of NSN maintenance cost
categories in preparing the July 2002 DORRA draft cost study underestimated
item manager functions and costs associated with inactive NSNs; did not fully
support, verify, or validate assumptions; excluded some applicable costs; and
used inconsistent methodologies. The July 2002 DORRA draft cost study
identified three maintenance cost categories for its analysis. The study indicated
that direct inactive NSN maintenance costs were generated in three organizational
areas: the DSCs, which perform specific NSN maintenance functions for inactive
NSNs; the computer system used by the Defense Logistics Information Service
(DLIS), which manages and distributes logistics information and performs
cataloging functions, as well as general support computer systems; and the
depots, which store the physical inventory and perform specific tasks applicable
to NSNs with inventory in the depots. Table 3 shows the cost of stocked and non-
stocked inactive NSNs in each of the three maintenance cost categories.




                                       6
                      Table 3. July 2002 DORRA Draft Cost Study
                     Cost of Stocked and Non-Stocked Inactive NSNs


Cost Category of                 Average         Cost Category of Non-       Average
Stocked Inactive NSN             NSN Cost        Stocked Inactive NSNs       NSN Cost

Annual supply center cost         $0.17          Annual supply center cost   $0.17

Computer storage cost              0.80          Computer storage cost        0.80

Depot storage cost                 0.56          Depot storage cost           0

 Total                            $1.53            Total                     $0.97


 Annual Supply Center Cost. DORRA needed additional data analysis in the
 category of annual supply center cost for a more accurate and complete cost
 study. In the analysis of annual supply center cost, DORRA assumed that the
 only cost in the category was for the involvement of item managers who perform
 a manual review of inactive NSNs for the DIIP. To determine that cost, DORRA
 reviewed the computer system-generated DIIP candidates for FY 2001 (836,487
 NSNs for all DSCs) for NSNs that were managed by DSC Richmond and, from
 those NSNs, determined the NSNs that were eligible for review. NSNs that were
 specifically coded for exclusion by the Services or had been reviewed within a 2-
 year period were ineligible and were excluded from the list of computer system-
 generated candidates. The percentage of NSNs that were determined to be
 eligible for review at DSC Richmond was used to calculate total inactive NSNs
 eligible for review at all DSCs. Subject matter experts at DSC Richmond
 estimated that 10 percent of the eligible NSNs required a manual review by an
 item manager. Using data from a DLA work measurement study, DORRA
 estimated the amount of time that it takes an item manager to review an NSN (6
 minutes) and estimated the average pay grade of item managers (GS-9, step 5).
 Table 4 shows the DORRA calculation of the total annual supply center cost for
 an item manager to review NSNs for the DIIP.

                Table 4. July 2002 DORRA Draft Cost Study
               Calculation of Total Annual Supply Center Cost

            Total inactive NSNs                                  836,487
            Percentage of items eligible for review           x       .62
            Total inactive items eligible for review             518,622
            Percentage requiring item manager review          x       .10
            Total items requiring item manager review             51,862
            Time spent reviewing an item (in minutes)         x         6
            Total number of minutes                              311,172
            Hours (total minutes divided by 60)                    5,186
            Hourly rate (GS-9, step 5)                        x $ 27.44
             Total Cost to Review Inactive NSNs                 $142,304




                                            7
The average annual supply center cost per NSN was calculated by dividing the
total cost to review inactive NSNs ($142,304) by the total number of inactive
NSNs (836,487), which equals $0.17.

        Item Manager Responsibilities. The average annual supply center cost
was inaccurate because the category did not include all item manager functions
related to inactive NSNs. The category narrowly defined the responsibilities of
item managers to the manual review of a small percentage of inactive NSNs
eligible for the DIIP. DORRA asserted that the management of NSNs has
changed significantly over the past 15 years with the evolution of computer
technology. Therefore, item managers are only involved with inactive NSNs to
perform a few manual reviews each year on NSNs eligible for the DIIP, which
require a minimal amount of time. DLA Manual 4140.2, volume 2, describes at
least seven areas in addition to inactive item review for the DIIP that should
require some amount of time by the item manager to manage inactive items.
Included among the responsibilities are inventory accounting and adjustments,
physical inventory, processing disposal transactions, and the weapon system
support program. We believe DORRA needed a more thorough analysis of the
item manager function to ensure all responsibilities and associated costs were
included in the category.

         Total Inactive NSNs. The total direct labor cost for reviewing an NSN
was inaccurate because it underestimated the total number of inactive NSNs that
were managed at the DSCs. To identify inactive NSNs in the Standard
Automated Materiel Management System (SAMMS) database, the DORRA study
used the DIIP criteria--the NSN had to have been in the supply system for 7 years,
experienced no demand in the past 5 years, and been managed by the DSC for at
least 2 years. The DORRA study identified 836,487 inactive NSNs based on that
criteria. However, the database contained about 1.3 million additional NSNs that
included items for which the “date of last demand” computer field was blank or
was filled with zeros. Those additional NSNs should have also been evaluated
against the criteria for inactive NSNs. Because no date was entered, NSNs had
either had no demand for the item or the NSN was new to the DLA supply
system, such as NSNs transferred from the Military Departments. The NSNs new
to the DLA supply system do not meet the criterion of being managed by a DSC
for 2 years and, thus, should be excluded from the inactive NSN total. To
eliminate those NSNs that were newly assigned or were recently transferred, we
included only the NSNs that DLA had managed for more than 7 years and had no
demand date entered in the file. Applying that criteria, an additional 434,722
NSNs should have been considered inactive and included in calculating the
average annual supply center cost in the DORRA draft cost study.

        Assumptions. The assumptions used by DORRA to determine the
average annual supply center cost were unsupported, unverified, or not validated.
Although DORRA collected and analyzed data from an array of sources, the data
and analysis were limited in scope, arbitrary, or outdated and, therefore, were
unreliable. For example, to establish the percentage of NSNs that were eligible
for DIIP review, DORRA identified the number of computer system-generated
candidates for the DIIP at DSC Richmond. Of that number, DORRA estimated
that 62 percent of the records were eligible for review. However, DORRA did
not determine or estimate the percentage of items eligible for review at DSC


                                    8
Columbus or DSC Philadelphia. DORRA assumed the percentage was the same
at all DSCs without any verification or validation. Additionally, DORRA
determined the number of NSNs eligible for review that actually required a
review by an item manager by simply asking subject matter experts at
DSC Richmond for their best estimate. DORRA did not solicit input from supply
centers other than DSC Richmond nor did it collect and use any historical or other
data that were verified or validated to establish the 10 percent estimate used in the
calculation. In an attempt to determine the validity of the total items requiring an
item manager review, we reviewed a September 30, 2001, DIIP progress report on
weapon system-related NSNs for the three DSCs. We determined that
93,400 NSNs had been reported by registered users for elimination. Before
deleting them, DLA item managers would have needed to review those NSNs.
The 93,400 NSNs that we determined required an item manager review was
80 percent greater than the 51,862 NSNs estimated in the July 2002 draft cost
study.

       Item Review Time. The 6 minutes used by DORRA as the time spent by
an item manager to review an item to determine whether the NSN should be
included in the DIIP was outdated because it was established from a 1988 DLA
work measurement study, “Special Purpose Data for Processing Standard Supply
Control Study--Less Procurement and Item Manager Request.” We did not
evaluate the DLA work measurement study for this audit. However, prior audits
noted that repair depots are required to revalidate work measurement standards
every 2 years, which appears to be a reasonable review period. DORRA did not
update and revalidate the standard in the 1988 work measurement study.

        Grade and Hourly Rate for Item Review. Using the hourly rate for a
GS-9, step 5 to calculate the cost for time an item manager spends to review an
inactive NSN appeared to be slightly understated. According to human resources
personnel at DLA, there were 694 inventory management specialists ranging from
GS-5 through GS-14, with an average grade of GS-10, step 5, at the three DSCs
in May 2003. DoD 7000.14-R, “Financial Management Regulation,” 1998,
established the billing rate for civilian personnel fringe benefits at 32.3 percent of
the base GS rate. Using those average rates, the time of an item manager
(inventory management specialist) would be valued at $30.39 an hour, as
compared to the $27.44 an hour for a GS-9, step 5 used in the July 2002 DORRA
draft cost study.

Computer Storage Cost. The July 2002 DORRA draft cost study did not
include all applicable costs for computer operations. For computer storage costs,
DORRA calculated two separate costs, those associated with the Federal
Logistics Information System (FLIS) managed by the DLIS and those associated
with SAMMS. DLIS, a subordinate command of DLA, manages the logistics
data for cataloged items (NSNs) in the FLIS that are used by DLA and the
Services; SAMMS is a DLA legacy materiel management system used throughout
DLA. The DORRA draft cost study concluded that the FLIS annual average
computer storage cost was $0.19 and the SAMMS portion was $0.61, for a total
computer storage cost of $0.80. The computations, however, did not include all
computer-related costs.




                                      9
           DORRA calculated the FLIS cost by dividing the annual FLIS computer costs
           that it determined were applicable to inactive NSNs ($2.7 million) by the total
           number of NSNs registered in the FLIS (14,561,114∗). The $2.7 million used in
           the study included the annual cost for the central processing unit, input and output
           devices, disk megabyte days, and tape megabyte days. However, those costs are
           only 5.4 percent of the total annual DLIS expense ($50.3 million) that DLA used
           in the computation of the FY 2003 cost recovery rates. The primary function of
           DLIS is cataloging NSNs in the FLIS. With all cost accounts considered, the total
           average annual DLIS cost per NSN would be $3.45 ($50.3 million/14.6 million
           NSNs). Additionally, the study excluded about $9.4 million (81 percent) of the
           total SAMMS cost ($11.6 million). If all costs were included for SAMMS, the
           total average annual SAMMS cost per NSN would be $2.83 ($11.6 million/4.1
           million NSNs). The methodology for billing DLIS customers for computer
           storage is to allocate its total operating costs over all active and inactive NSNs in
           the FLIS. If the computer storage costs for FLIS and SAMMS were calculated
           consistent with DLIS methodology, the average annual computer storage cost for
           DLIS and SAMMS would equal $6.28 per NSN ($3.45 plus $2.83).

           Depot Storage Cost. DORRA needed additional data analysis in the category of
           depot storage cost for a more accurate and complete cost study. To determine
           depot storage costs for the cost analysis, DORRA identified the total number of
           NSNs that had inventory stored in DLA depots. From those NSNs, DORRA
           determined the number of inactive NSNs. DORRA then identified the operating
           costs for depots and prorated those costs to the inactive NSNs. DORRA assumed
           that only a small percentage (5 percent) of inactive NSNs required some direct
           labor for maintenance of the items in storage and adjusted the operating costs
           accordingly. Table 5 shows the DORRA draft cost study calculation of the total
           cost for inactive NSNs that had inventory stored in a DLA depot.

                          Table 5. July 2002 DORRA Draft Cost Study
                               Calculation of Depot Storage Cost
                 Total NSNs stored in depots                                    2,264,135
                 Total inactive NSNs stored in depots                             352,592

                 Total depot operating costs                                  $25,373,038
                 Percentage of inactive NSNs stored in depots                   x     .155
                 Operating cost for inactive NSNs stored in depots             $ 3,932,821
                 Percentage of inactive NSNs that require labor                 x       .05
                  Total cost for inactive NSNs stored in depots                $ 196,641

           The average annual depot storage cost per NSN was calculated by dividing the
           total cost to store inactive NSNs ($196,641) by the total number of inactive
           NSNs (352,592), which equals $0.56.

                  Completeness and Methodology. The July 2002 DORRA draft cost
           study calculation for depot storage cost was based on incomplete data and a
           methodology inconsistent with commercial practices. Of the 434,722 inactive
           NSNs that DORRA omitted in its calculation of the average annual supply center
∗
    The 14,561,114 includes both active and inactive NSNs cataloged in the FLIS system for FY 2001.



                                                     10
cost, we identified 69,307 additional NSNs that had inventory in storage depots
throughout DLA. Consequently, the number of NSNs used in the cost study,
352,592, was understated by as many as 69,307 NSNs. Including the additional
NSNs in the calculation would have increased the total number of inactive NSNs
with inventory stored in depots to 421,899 and the percentage of stored NSNs that
were inactive to 18.6 percent.

        Depot Operating Cost for Inactive NSNs. In determining operating
costs of inactive NSNs stored in depots, DORRA excluded 97 percent of the total
operating costs for storage depots, or 128 of 132 storage cost accounts, totaling
about $771 million (about $796 million total annual depot operating costs in
FY 2002 minus about $25 million for the four cost accounts DORRA included in
the study). The four cost accounts that were included in the study were stock
readiness inspection, care of materiel in storage, rewarehousing, and physical
inventory operations. Although we did not review all cost accounts, we did
identify at least four additional accounts that should have been considered in
determining total operating costs. Those additional cost accounts that we
considered applicable, but that DORRA excluded, were administrative operations;
support for warehouse operations; and packing, preservation, repackaging,
marking; and cleanup operations. A more complete representation of the cost
accounts for depot operating costs would have significantly increased the total
depot storage costs for inactive NSNs.

        Labor Requirements. For the study’s labor calculation, DORRA
assumed that only 5 percent of inactive NSNs with inventory stored in depots
would require some form of labor to maintain the items. DORRA subject matter
experts stated that the 5 percent was an estimate but they did not provide any data
analysis or documentation to support the validity of that assumption. In
calculating depot storage cost, DORRA applied the estimated percentage of
inactive NSNs that would require direct labor (5 percent) to the total depot
operating cost for inactive NSNs ($3,932,821) to determine the total cost for
inactive NSNs with inventory stored in depots ($196,641). We disagree with that
methodology and believe DORRA should not have computed direct labor cost.
To determine the average annual depot storage cost per NSN, DORRA should
have divided the depot operating cost for inactive NSNs by the total number of
inactive NSNs. Table 6 shows the audit calculation of the storage cost for
inactive NSNs with inventory stored in depots. Our calculation also includes the
69,307 NSNs with inventory that were among the inactive NSNs without a date of
last demand that DORRA omitted from its calculation.

           Table 6. Audit Calculation of Depot Storage Cost
    Total NSNs stored in depots                            2,264,135
    Total inactive NSNs stored in depots                     421,899
    Total depot operating costs                          $87,700,000
    Percentage of inactive NSNs stored in depots       x        .186
     Total cost for inactive NSNs stored in depots       $16,312,200




                                       11
    The audit-adjusted average annual depot storage cost would be calculated by
    dividing the total cost to store inactive NSNs ($16,312,200) by the total number
    of inactive NSNs (421,899), which equals $38.66, as compared to the July 2002
    DORRA draft cost study calculation of $0.56.

            Commercial Methods. The method used in the July 2002 DORRA draft
    cost study to compute depot storage cost was inconsistent with the methodology
    that DLA implemented for FY 2003 for computing and billing storage costs to its
    customers. For FY 2003, DLA implemented a new method for computing depot
    storage cost, referred to as the net landed cost approach. The net landed cost
    approach was implemented by DLA because the methodology is consistent with
    commercial practices and it requires detailed billing information be provided to
    the customers that are storing materiel in the DLA depots. The storage rate for
    customers is calculated using the cubic feet of items in storage. For FY 2003, the
    DLA portion of the total storage cost was $87.7 million. That $87.7 million was
    for all NSNs with inventory in storage and did not differentiate between costs for
    active and inactive NSNs. The net landed cost approach is consistent with the
    DoD policy to implement better business practices. Therefore, we believe
    DORRA should revisit the method it used to calculate the depot storage cost for
    inactive NSNs in the study and use the net landed cost approach for computing
    and allocating those costs over active and inactive NSNs. Applying the net
    landed cost approach to the 2,264,135 NSNs stored in depots identified in the July
    2002 DORRA draft cost study would result in an average annual storage cost of
    $38.73 per NSN ($87.7 million/2,264,135), as compared to the study calculation
    of $0.56.


Application of the July 2002 DORRA Cost Study
    Application of the information in the July 2002 DORRA draft cost study could
    have an adverse effect on the continued operation of the DIIP. In FY 2002, DLA
    proposed to the Office of the Deputy Under Secretary of Defense (Logistics and
    Materiel Readiness) interim policy for DoD and DLA that would impose a
    moratorium on the DIIP. DLA stated in its proposal that the moratorium was
    necessary because eliminating inactive NSNs through the DIIP process was
    having an inadvertent detrimental impact on readiness and because the DIIP was
    no longer cost-effective. In discussions with DLA officials, they stated that the
    DIIP was outdated. They also stated that DLA and the Air Force had experienced
    serious problems caused by NSNs being inappropriately deleted through the DIIP
    process, requiring the NSNs to be restored at a significant expense to DLA. DLA
    also noted that it was more costly to delete an inactive NSN from the inventory
    and management system ($57 per NSN according to the 1999 DLA cost study)
    than it was to keep the NSN in the inventory ($1.53 per NSN according to the
    July 2002 DORRA draft cost study).

    DLA stated in its proposal for a moratorium on the DIIP that other programs,
    including the DLA item reduction program, were better for eliminating inactive
    NSNs. However, the cost model used by the item reduction program to calculate
    the cost avoidance from eliminating inactive NSNs was inconsistent with the July
    2002 DORRA draft cost study. For FY 2001 through FY 2002, DSC Philadelphia


                                        12
reported that eliminating NSNs as a result of the item reduction program could
result in a $2.8 million potential cost avoidance. DLA applied $1,495 (the
life-cycle cost to eliminate a stocked NSN in the 1999 DLA cost study) to the
inactive NSNs that were candidates for elimination to calculate the $2.8 million.
We selectively identified 233 NSNs from the FY 2001 item reduction program
that were candidates for elimination from the DLA supply system at
DSC Philadelphia. When we compared the 233 NSNs with the DIIP, we found
that 100 of the NSNs had also been included in the DIIP, suggesting they were
inactive and could have been eliminated through the DIIP. If those 100 NSNs
were eliminated because they were inactive and not required, the cost avoidance
calculated for the item reduction program would be $149,500, as compared to a
cost avoidance of $153 for the DIIP. However, because the July 2002 DORRA
draft cost study was inaccurate, its average annual cost of $1.53 for a stocked
NSN and $0.97 for a non-stocked NSN cannot be used as a basis to accurately
determine the cost-effectiveness of the DIIP or any other DLA or DoD program.

If properly operated, the DIIP would not adversely affect readiness and should be
cost-effective. Our prior audits established that DIIP policy and procedures were
not being followed, resulting in either unneeded NSNs not being deleted from the
supply files or NSNs that supported active weapon systems being deleted. In
IG DoD Report No. D-2002-149, “Defense Logistics Agency Managed Items
Supporting Air Force Weapon Systems,” September 18, 2002, we reported that
DLA deleted NSNs that had to be restored because DLA and the Air Force were
not following DIIP policy. We also reported that the automated system needed to
be fully implemented to ensure registered users responded to revalidation
requests. Both DLA and the Air Force concurred with recommendations to
alleviate the problems, which would allow the DIIP to operate properly.

DoD Manual 4140.32-M states that the objective of the DIIP is to eliminate
unneeded NSNs because they needlessly consume warehouse space, personnel
resources, and machine time with adverse effect on the total supply operation.
Consistent with that DoD policy, the DIIP played a vital role in achieving the
goals established by DoD in response to the DoD Inventory Reduction Plan and
the Government Performance and Results Act (GPRA) to reduce the DoD supply
inventory. The GPRA goal was to reduce the DoD supply inventory from about
$107 billion in FY 1990 to about $56 billion in FY 2000. However, DLA
personnel stated that advances in technology had minimized the cost of
maintaining inactive NSNs and that the DIIP may no longer be a cost-effective
program for inventory reductions. We believe that the DIIP continues to be an
important program that will prevent DoD supply inventories from again reaching
FY 1990 levels and that conclusions reached in the July 2002 DORRA draft cost
study wrongfully appear to support the DLA assertion that the DIIP may not be
cost-effective. We agree that the cost of maintaining data in a computer may have
been reduced over the last decade. However, our analysis of the July 2002
DORRA draft cost study indicates that the draft study excludes or misrepresents
many cost categories and understates the cost to retain and maintain inactive
NSNs. Therefore, the July 2002 DORRA draft cost study is not an accurate basis
for determining the cost-effectiveness of the DIIP. Of the 4.1 million NSNs that
DLA managed in FY 2001, about 1.4 million (approximately 34 percent) were
potentially inactive as of May 2001. For that reason, we believe that the DIIP, or



                                    13
    some form of the DIIP, needs to play a role in the overall management and
    control of inactive NSNs and of the total DoD supply inventory.


Management Comments on the Finding and Audit Response
    A discussion of DLA comments on the finding is in Appendix C. Based on DLA
    comments, we modified the report to more accurately reflect the number of
    potentially inactive NSNs.


Recommendations, Management Comments, and Audit
  Response
    We recommend that the Director, Defense Logistics Agency:

            1. Reevaluate the cost categories for determining the average annual
    cost for maintaining an inactive national stock number item in the Defense
    Logistics Agency supply system and recalculate the average annual cost
    consistent with other pricing and cost methodologies.

    DLA Comments. DLA partially concurred, stating that DORRA will revise the
    2002 draft cost study based on comments that were made in the audit report with
    which it concurred.

    Audit Response. DLA comments were not fully responsive. DLA agreed to
    incorporate only those costs we identified in the audit with which it concurred.
    DLA maintains that certain overhead expenses, labor costs, and computer storage
    costs should be excluded from the 2002 DORRA draft cost study. The DLA
    rationale for not including those specific costs are in its comments on the finding
    and are discussed in Appendix C. We disagree with the DLA rationale for not
    including the additional costs and request that DLA provide additional comments
    in response to the final report.

           2. Discontinue application of the draft Defense Logistics Agency
    Office of Operations Research and Resource Analysis report, “Cost of a DLA
    Maintained Inactive National Stock Number,” July 2002, to any authorized
    programs of DoD or the Defense Logistics Agency until all applicable cost
    categories are fully evaluated and the applicable costs of those relevant
    categories are incorporated into the cost study.

    DLA Comments. DLA concurred, stating that when DORRA finalizes the cost
    study by incorporating DLA-determined recalculated costs, the study will then be
    officially disseminated.




                                        14
Audit Response. Although DLA concurred with the recommendation, its
proposed actions are not fully responsive. DLA did not agree to incorporate
additional costs that were identified in the audit in the final DORRA cost study
report. Unless all the costs are included in the final study, we believe that the
2002 DORRA draft cost study will not provide a reasonable basis to estimate the
cost of managing inactive items. We request that DLA reconsider its position and
provide additional comments in response to the final report.




                                   15
Appendix A. Scope and Methodology
   We evaluated the July 2002 DORRA draft cost study. In assessing its
   applications and implications, we reviewed prior audit reports, the
   September 1999 DLA cost study, the DIIP, and the DLA item reduction program.
   To evaluate the process DORRA used for developing the cost model, to determine
   the reasonableness of the DORRA cost factors, and to establish the reliability of
   source data, we reviewed supporting documents for the period September 1988
   through May 2003. We also reviewed DLA FY 2002 budget submissions,
   financial statements, supply records, management data files, DIIP progress
   reports, cost models, and DLA work measurement studies. Additionally, we
   reviewed Government and commercial Internet sites for studies and reports
   relating to the cost of maintaining or managing inactive or obsolete materiel.
   Further, we reviewed DoD and DLA policies and procedures related to the DIIP,
   DoD financial management regulations, and DLA guidance on the item reduction
   program.

   We interviewed financial and supply management personnel at DLA headquarters
   and DSCs Columbus, Philadelphia, and Richmond. We also contacted DORRA,
   DLA item managers, and personnel from DLIS, the Office of the Under Secretary
   of Defense (Comptroller)/Chief Financial Officer, the Office of the Deputy Under
   Secretary of Defense (Logistics and Materiel Readiness), and the Office of the
   Federal Supply Service in the General Services Administration.

   We performed this audit from November 2002 through June 2003 in accordance
   with generally accepted government auditing standards. We did not review
   management controls related to the audit objective because the scope of the audit
   was limited to the review of the July 2002 DORRA draft cost study. The scope of
   the audit was further limited to evaluating and verifying the costs included in the
   draft study.

   We reviewed several cost models to evaluate the consistency of the methodology
   that DORRA used in developing the cost categories and average rates for inactive
   NSNs in the July 2002 draft cost study. We compared the methodologies in the
   July 2002 draft cost study with those in the September 1999 DLA cost study, the
   DLA pricing model for FY 2003 cost recovery rates, the FY 2003 DLA item
   reduction program, and the DLA FY 2003 customer storage cost rates. We also
   considered the General Services Administration rate for computer storage in our
   analysis.

   Use of Computer-Processed Data. We relied on computer-processed data from
   the Defense Business Management System, the DLA Integrated Data Bank, the
   FLIS, and SAMMS that were provided by DLA to evaluate the July 2002
   DORRA draft cost study. We did not perform a formal reliability assessment of
   the computer-processed data. To the extent that we reviewed the data, we did not
   find errors that would preclude use of the data to meet the audit objectives or that
   would change the conclusions in this report.




                                        16
General Accounting Office High-Risk Area. The General Accounting Office
has identified several high-risk areas in DoD. This report provides coverage of
the DoD Inventory Management high-risk area.




                                   17
Appendix B. Prior Coverage
    During the past 5 years, the Inspector General of the Department of Defense
    (IG DoD) and the Air Force Inspection Agency have issued eight reports
    discussing obsolete and inactive NSNs. Unrestricted IG DoD reports can be
    accessed over the Internet at http://www.dodig.osd.mil/audit/reports.


IG DoD
    IG DoD Report No. D-2002-149, “Defense Logistics Agency Managed Items
    Supporting Air Force Weapon Systems,” September 18, 2002

    IG DoD Report No. D-2002-131, “Terminal Items Managed by the Defense
    Logistics Agency for the Navy,” July 22, 2002

    IG DoD Report No.D-2002-060, “Management of Terminal Items at the Defense
    Logistics Agency,” March 13, 2002

    IG DoD Report No. D-2001-187, “Defense Logistics Agency Items Supporting
    Obsolete Army Weapon Systems,” September 27, 2001

    IG DoD Report No. D-2001-131, “Items Excluded From the Defense Logistics
    Agency Defense Inactive Item Program,” May 31, 2001

    IG DoD Report No. D-2001-035, “Management of Potentially Inactive Items at
    the Defense Logistics Agency,” January 24, 2001

    IG DoD Report No. D-2000-185, “Allegations to the Defense Hotline Concerning
    Management of Obsolete Reparable Items,” September 7, 2000


Air Force
    Air Force Inspection Agency Report No. PN 00-502, “Purging Aircraft Major-
    End Items,” September 19, 2000




                                       18
Appendix C. Summary of DLA Comments on the
            Finding and Audit Response
   DLA General Comments. DLA took exception with our overall conclusion that
   all applicable costs were not included in the 2002 DORRA draft cost study. DLA
   stated that inactive items incur no additional labor costs because there are no
   procurement actions and no movement of stock. In addition, DLA stated that
   eliminating inactive items would have little impact on the cost of storing data.
   Also, NSNs with on-hand inventory require only a very small amount of depot
   work. Eliminating inactive NSNs results in such a small amount of work
   reduction, DLA stated, that virtually no overhead costs would be reduced. The
   exception to this is if there were significant amounts of materiel in storage that
   could be eliminated and whole depots could be closed.

   DLA also stated that overhead costs used in the pricing of NSNs should not have
   been used in the IG DoD analysis. Inactive NSNs by definition do not have sales.
   Pricing, on the other hand, is related to sales. What is appropriate for recouping
   costs in sales is not necessarily appropriate for determining the costs related to
   savings if inactive NSNs are eliminated.

   Audit Response. We agree that, under most circumstances, inactive NSNs do not
   require the same labor-intensive efforts or procurement and other actions that are
   required for active NSNs. We also agree that sale prices for items include more
   costs than the cost for maintaining inactive items. However, as stated by DLA,
   financial management regulations require that sales by DLA recoup all costs.
   Because inactive items have no sales, all of the costs of managing inactive items
   must be included in the items that are sold. The fundamental difference between
   the DLA and IG positions is in identifying those costs that should be fairly
   allocated to active and inactive NSNs. To illustrate the apparent inequity in the
   DLA system, we attempted to compare the cost recovery rate on the sale of
   inactive NSNs that were maintained with no demand for more than 5 years to the
   average cost to maintain those inactive NSNs as calculated by DLA. We
   determined that approximately 320,852 (23 percent) of the 1.4 million potentially
   inactive NSNs in the audit may be required by customers occasionally or
   intermittently. Those NSNs that are requisitioned occasionally had not
   experienced a demand within 5 years and should be candidates for review under
   the DIIP. We reviewed the cost recovery rates for those inactive NSNs sold at
   DSC Richmond and determined that the overhead categories that DLA excludes
   when figuring the cost of maintaining inactive items are included in the cost
   recovery rate of the inactive items that are sold. We further determined that for
   those types of inactive items that are sold, 12 different cost recovery rates were
   applied to the sale, ranging from 19 percent to 60.5 percent, with the rate for the
   majority of the items set at about 51 percent. Simply stated, if the cost to
   maintain an inactive NSN excludes overhead cost and is estimated at $1.53 for a
   stocked item, it would appear that DLA customers were charged unfairly for
   intermittently-required NSNs that are inactive and are sold after 5 years. Stated




                                       19
           another way, if there are no overhead and certain other expense costs for
           managing inactive items, why are the overhead and other expense costs included
           in the cost recovery rate for inactive items that are sold to customers; it appears to
           be an inconsistent methodology.

           We disagree with DLA that eliminating inactive NSNs would result in such a
           small amount of work reduction that no overhead costs would be reduced. Our
           analysis showed that of the 1.4 million potentially inactive items identified in
           May 2001, 403,5321 had stock stored in DLA depots with an inventory value in
           excess of $729 million. The 403,532 inactive items with stock on hand represent
           about 10 percent of all items managed by DLA, both stocked and non-stocked
           items, or about 17.5 percent of the total NSNs (2.3 million) with stock on hand.
           A conservative extrapolation would indicate that total storage capacity within
           DLA could be reduced, which should result in a significant reduction in overhead
           and other expense costs. Therefore, we continue to believe that overhead and
           certain other expense categories should be included in the cost model for inactive
           items because they are significant and the methodology is consistent with the
           DLA cost recovery rates applied to inactive items that are sold to customers.

           DLA Comments on the Report’s Background and DIIP Sections. DLA stated
           that the NSNs with a zero-filled or blank “date of last requisition” field may have
           been provisioned and the user’s original date is later than originally forecast
           because of delays in fielding equipment. DLA did not concur with our analysis
           that certain overhead and other expense categories should have been included in
           the cost of maintaining an inactive NSN. DLA stated that the DORRA study’s
           marginal analysis was correct because no operational expenses were expended on
           inactive NSNs. Because no acquisition costs are expended on inactive NSNs, a
           percentage of the overhead and other expense categories should not be applied to
           them.

           Audit Response. DLA states that zero-filled or blank date of last requisition
           fields indicated that those NSNs may have been initially provisioned, but DLA
           provided no evidence or data to support that supposition. Whether an item is
           initially provisioned or not is a moot point because provisioning of an NSN is not
           germane to the identification of inactive items for the DIIP process. If an item
           with a zero-filled or blank date of last requisition field were included in the DIIP,
           the user (generally a Military Component) would need to verify that no
           requirement exists before any action was taken by DLA to remove the item from
           the supply system. Consequently, if DLA were managing an item for 7 or more
           years and the date of last requisition field was zero-filled or blank, it appears to be
           a logical default that the item fits the definition of an inactive item and should be
           included in the DIIP process.

           In the draft report, we included all inactive items with a blank or zero-filled date
           of last requisition field in our summary analysis. Although DLA could not verify
           the number of inactive NSNs that qualified as a provisioned item, we changed the


1
    The 403,532 is 18,367 less than the total number of inactive NSNs (421,899) identified in Table 6.
    “Audit Calculation of Depot Storage Cost” because the date of the database used in the DORRA cost
    study represented a different timeframe.



                                                    20
number of potentially inactive items to include only those that had been managed
by DLA for 7 or more years. Using this criteria, we calculated the number of
potentially inactive items to be 1.4 million instead of 2.1 million NSNs.

Regarding the use of marginal costs, the Office of Management and Budget,
Statement of Federal Financial Accounting Standards Number 4, dated July 31,
1995, states that program costs include direct costs, indirect costs, and
non-production costs associated with a program. Program costs include the full
costs of the program outputs, which consist of the direct costs and indirect costs
(all other costs that can be directly traced, assigned on a cause and effect basis, or
reasonably allocated to the program outputs). We believe that some portion of the
overhead and other expense costs can be reasonably allocated to the
320,852 inactive items that may be occasionally required.

DLA Comments on Annual Supply Center Cost. DLA stated that the annual
supply center cost for maintaining an inactive item is actually a cost to cancel an
inactive item, further stating that if the DIIP were canceled, all of the costs
associated with item manager functions would not apply. Conversely, DLA
concurred, or partially concurred, that all item manager functions were not
included; that certain assumptions were unsupported, unverified, and not
validated; that item review times were outdated; and that grades and hourly rates
of the item managers were understated. DLA planned to have DORRA further
evaluate those cost categories.

Audit Response. We consider DLA comments to be responsive; however, we
believe that item manager costs include more than those associated with canceling
inactive items.

DLA Comments on the Computer Storage Costs. DLA nonconcurred with the
annual DLIS operating costs that we used in calculating computer storage costs.
In addition, DLA stated that the DLIS costs used in the DORRA study
represented the portion of costs charged to DLIS by the Defense Information
Systems Agency (DISA). Furthermore, there are many functions or programs
within DLIS that do not relate to the management of inactive NSNs. To take the
total operating budget and divide it by the total number of NSNs is an inaccurate
portrayal of DLIS costs to have those NSNs remain in FLIS. The computer costs
for FLIS management are split equally among DLA, the Army, the Navy, and the
Air Force. The computer costs of other on-line services are allocated according to
the usage of the customers for those services.

Audit Response. The total operating expense for DLIS in FY 2002 was
$126.4 million. The DLA pricing model, which is used as a tool for computing
DLA cost recovery rates, showed that $50.3 million in DLIS expenses were
allocated among the three DLA supply centers. The DORRA cost study
determined that $2.7 million of the annual FLIS computer costs were applicable
to inactive NSNs and calculated the computer storage costs by dividing the
$2.7 million by 14,561,114, the total number of NSNs registered in the FLIS. We
believe the $2.7 million used in the DORRA cost study for computer storage
capacity does not represent the complete cost of maintaining NSNs in the DLIS
cataloging system. The $2.7 million represents only the DISA charges for
computer storage. Furthermore, the DORRA draft cost study calculated the


                                     21
           computer storage cost using all of the NSNs registered in the FLIS--both active
           and inactive. DLIS manages a number of files and must regularly update
           information in the FLIS, such as cross-referencing commercial part numbers to
           NSNs, adjusting prices, adjusting contractor and government entity codes, and
           generally maintaining numerous other data elements in the FLIS. The costs of
           those actions are not covered in the DISA charge nor differentiated by active and
           inactive items. Because the $50.3 million is the cost recovery for DLIS
           operations, whose prime mission is maintaining the cataloging database, it
           appears more reasonable to calculate expenses based on $50.3 million rather than
           the $2.7 million used in the cost study.

           DLA Comments on the Depot Storage Cost. DLA introduced a new method
           (net landed cost) in FY 2003 to estimate and charge its customers for storing
           secondary items. Unlike the previous method, the new method allows DLA to
           calculate the cost of secondary inventory items on a per item basis. DLA further
           stated that although the cost of items in excess of the requirements objective can
           be estimated, savings would be negligible unless the bases where DLA depots are
           located are closed. This is because the cost of providing base infrastructure, such
           as fire protection, physical security, road maintenance, water, and sewage, is
           apportioned to all customers on an installation. Closing a few depots does not
           significantly reduce base infrastructure costs and only changes the allocation of
           those costs among base customers. DoD savings could be achieved if the entire
           installation is closed. The net landed cost accounting basis makes cost estimates
           based on the cubic measurement of the item, not the warehouse. The DLA
           storage cost projection for FY 2003 was $87.5 million [sic]2. That cost projection
           was based on the total cubic feet of items that are stored in DLA depots. There
           were 352,592 inactive DLA-managed items stored in the various DLA depots.
           DLA calculated the total of the 352,592 inactive NSNs to be 631,087 cubic feet.
           The approximate storage cost would amount to $2.1 million. The unburdened, or
           unfunded, amount would be approximately 25 percent, or $0.53 million.

           Audit Response. We disagree with some of the fundamental assumptions that
           DLA used to calculate depot storage cost. DLA stated that closing a few depots
           would not significantly reduce DoD infrastructure costs. However, closing depots
           could reduce overall costs for DLA, which could eventually reduce overall costs
           for DoD. We believe the methodology DLA used to compute the depot storage
           cost is skewed in favor of the DLA position. DLA stated that the $87.5 million
           was a projection of the FY 2003 storage cost, and the total of the 352,592 inactive
           NSNs was 631,087 cubic feet. Using the DLA covered storage cost of $3.36 per
           cubic foot, the approximate storage cost was $2.1 million. The 25 percent
           unburdened amount appears subjective and contrary to the earlier DLA position
           that storage costs were based on item volume not value. The methodology used
           by DLA to compute depot storage cost assumed that inactive NSNs did not
           require the same amount of labor as active NSNs. However, dormant stock incurs
           costs that could be significant, such as depot space with requisite charges for
           operating the depot, periodic inspections, inventory of items, and rewarehousing
           actions. DLA provided no data to support its position that inactive NSNs incur
           only 25 percent of the cost of maintaining an active item in storage.

2
    The correct depot cost projection for FY 2003 was $87.7 million.



                                                     22
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Unified Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations


                                          23
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        24
Defense Logistics Agency Comments




                     25
26
27
     Revised




28
29
Should be
$87.7
million




            30
31
Team Members
The Readiness and Logistics Support Directorate, Office of the Deputy Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Tilghman A. Schraden
Terrance P. Wing
John W. Henry
Brett A. Mansfield
Elizabeth L. N. Shifflett
